Audit of USAID/CAR’s Training, Use and
Accountability of Cognizant Technical Officers
(CTOs)


Audit Report No. B-176-04-002-P




      U.S. Agency for International Development
                 Budapest, Hungary
November 20, 2003


MEMORANDUM
FOR: 	         USAID/Central Asian Republics, Regional Mission Director,
               George Deikun

FROM:          Regional Inspector General/Budapest, Nancy J. Lawton /s/

SUBJECT:	      Audit of USAID/CAR’s Training, Use and Accountability of
               Cognizant Technical Officers (CTOs)
               (Report No. B-176-04-002-P)

This is our final report on the subject audit. We reviewed your comments to our
draft report and included them in Appendix II to this report

This report recommends that USAID/CAR (1) evaluate the need for additional
training based on the requirements identified by individual CTOs, (2) only permit
certified CTOs to serve as alternates in the absence of the primary CTO, (3)
incorporate CTO duties and responsibilities into the position descriptions, work
objectives, and statements of work of each individual designated to serve as a
CTO, and (4) require supervisors to evaluate CTO performance against work
objectives or statements of work and solicit comments from the contracting office
personnel and other pertinent sources, on each CTO’s performance.

Based on your comments to our draft report, we consider that a management
decision has been reached on Recommendation Nos. 1, 2, 3, and 4. Please notify
the Bureau for Management’s Office of Management Planning and Innovation as
final action is completed for each recommendation.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                    1

(This Page Intentionally Left Blank)




                                       2

Table of 
   Summary of Results.....................................................................................5
Contents 

             Background ..................................................................................................5 


             Audit Objectives ..........................................................................................6 


             Audit Findings .............................................................................................7 


                        Did USAID/CAR provide adequate training 

                        and guidance to its Cognizant Technical Officers (CTOs) 

                        to help ensure that they were aware of and 

                        capable of performing their responsibilities?...................................7 


                                   USAID/CAR Should Provide Additional Training 

                                   To Primary CTOs ................................................................7 


                                   USAID/CAR Should Allow Only Certified CTOs 

                                   To Serve As Alternate CTOs …………………………...…9 


                        Did USAID/CAR hold its Cognizant 

                        Technical Officers accountable for performing 

                        their responsibilities in accordance with 

                        USAID policies and regulations?...................................................10 


                                   USAID/CAR Needs to Evaluate CTO Performance .........11 


             Management Comments and Our Evaluation ............................................15 


             Appendix I - Scope and Methodology .......................................................17 


             Appendix II - Management Comments......................................................19 


             Appendix III - Table 1 ...............................................................................23 


             Appendix IV - Table 2 ..............................................................................25 


             Appendix V - Table 3 ...............................................................................27 





                                                                                                                                3

(This Page Intentionally Left Blank)




                                       4

Summary of   An important member of any USAID acquisition and assistance team is its
Results      Cognizant Technical Officer (CTO). It is the CTO's responsibility to ensure,
             through liaison with the contractor or grant recipient, that the terms and
             conditions of the acquisition and assistance instrument are accomplished. (See
             Background, this page.)

             As part of the Office of Inspector General’s multi-year strategy for auditing
             USAID procurement activities, the Regional Inspector General/Budapest
             conducted this audit to determine whether USAID/Central Asian Republics’
             Regional Mission (USAID/CAR) provided adequate training and guidance to its
             CTOs and held them accountable for performing their CTO responsibilities. (See
             page 6.)

             Although USAID/CAR has been pro-active in providing training to ensure that its
             CTOs acquired the necessary core competencies, the Regional Mission should
             provide additional training to meet individualized CTO needs (see page 7), only
             permit certified CTOs to serve as alternates (see page 9), and develop documented
             work performance criteria and objectives by which to assess and hold CTOs
             accountable for assigned CTO duties. (See page 10.)

             This report includes four recommendations to help USAID/CAR adopt practices to
             improve its CTO training as well as to hold its CTOs accountable for the
             performance of their tasks. (See page 9, 10, and 13.)

             USAID/CAR agreed with three recommendations and suggested a change for
             Recommendation No. 2. We agreed that the Regional Mission’s proposed
             recommendation would achieve the same desired outcome and we modified the
             recommendation. Based on the Regional Mission’s response to our draft report,
             we determined that a management decision has been made on all four
             recommendations. (See page 15.)


Background
             As a practical matter, contracting officers rarely have sufficient time or the
             necessary expertise in critical technical or program areas to single-handedly
             ensure successful contract/grant completion. Contracting officers, therefore,
             designate a properly trained individual to serve as the CTO1 for each contract or
             grant award. CTOs serve as an important member of any acquisition or assistance
             team. It is the CTO's responsibility to ensure, through liaison with the contractor
             or grant recipient, that the terms and conditions of the acquisition and assistance



             1
               As defined within the Office of Procurement's Desk Guide, the term, CTO, is used by USAID in
             lieu of the other federal terms such as "Contracting Officer’s Technical Representative (COTR)"
             or "Contracting Officer’s Representative (COR)" and denotes that CTOs can be responsible for
             grants as well as contracts. When acting within the scope of the delegated authority, the CTO
             binds the U.S. Government as surely as the contracting or grant officer does.
                                                                                                           5

                      instruments are accomplished. A formal designation letter,2 which may follow a
                      standard format, delineates the specific actions the CTO can perform with respect
                      to the award and is effective for the life of the instrument, unless rescinded in
                      writing by the contracting officer.

                      At USAID/CAR, individuals were selected by the SO Team Leader to serve as the
                      CTO because of their technical knowledge of the program. Selected individuals
                      then received designation letters from the contracting officer that detailed the
                      specific CTO tasks that they were authorized to perform. Although these letters
                      used a standard format, they were modified slightly for the type of assistance
                      award and the position of the person serving as the CTO. At USAID/CAR, CTOs
                      usually work on one to three awards at a time.

                      As of April 2003, USAID/CAR had 35 designated CTOs. The majority of these
                      CTOs reside in USAID/CAR’s headquarters office in Almaty, Kazakhstan, with a
                      small number residing in the country offices of Kyrgyzstan, Uzbekistan, and
                      Tajikistan. The country office in Turkmenistan currently has no designated CTOs.
                      According to unaudited information provided by the Regional Mission’s
                      contracting office, these CTOs were responsible for managing contracts, grants,
                      and cooperative agreements valued at an estimated $483 million, of which $299
                      million had been obligated. Of the 19 CTOs interviewed, 3 were U. S. Foreign
                      Service officers, 10 were U.S. personal services contractors (PSC), and 6 were
                      local national PSCs. Table 1 shows the CTO distribution in the region and the
                      total award obligations.

                    Table 1: Distribution of USAID/CAR CTOs (unaudited)
                                          Kazakhstan
                                        Regional Mission    Uzbekistan    Kyrgyzstan    Tajikistan       Total

                  Number of CTOS              26                 5             2             2             35
                  Dollars Obligated
                    (in millions)           $267.9             $24.5          $1.5          $4.8         $298.7
                   Percent of Total
                       Dollars              89.7%              8.2%           0.5%         1.6%          100%




Audit Objectives	 This audit was conducted as part of a worldwide audit and as part of the Office of
                      Inspector General's multi-year strategy for auditing USAID’s procurement
                      activities.

                      The audit was conducted to answer the following questions:




                      2
                        Per ADS202.3.4.3 (c) For grants and cooperative agreements, the agreement officer names the
                      nominated candidate in the award itself and may or may not issue a designation memorandum to
                      the CTO that discusses the responsibilities of this role.
                                                                                                                  6

                  • Did USAID/CAR provide adequate training and guidance to its Cognizant
                    Technical Officers to help ensure that they were aware of and capable of
                    performing their responsibilities?

                  • Did USAID/CAR hold its Cognizant Technical Officers accountable for
                    performing their responsibilities in accordance with USAID policies and
                    regulations?

                  Appendix I contains a discussion of the audit scope and methodology.



Audit Findings 	 Did USAID/CAR provide adequate training and guidance to its Cognizant
                  Technical Officers to help ensure that they were aware of and capable of
                  performing their responsibilities?

                  USAID/CAR was proactive in providing training and guidance to its CTOs to ensure
                  that they were capable of performing their responsibilities. As a result, 30 of 35, or
                  86 percent, of primary CTOs received the required acquisition and assistance
                  training necessary for CTO certification. However, some CTOs believed that
                  additional training is still needed to help them fulfill their duties.

                  Furthermore, the acquisition and assistance training required for certification was not
                  provided or required for the majority of the Regional Mission’s alternate CTOs. At
                  USAID/CAR, the alternate CTO is usually the SO Team Leader and the designated
                  CTO’s supervisor. The need for the Regional Mission to provide more training for
                  primary CTOs and to only permit certified CTOs to serve as alternate CTOs is
                  discussed below.


                  USAID/CAR Should Provide Additional
                  Training To Primary CTOs

                  Although USAID/CAR did provide training for most of its CTOs to meet the
                  certification requirements, the audit showed that some individuals needed additional
                  training. Many CTOs are new to the Agency and have little experience in USAID’s
                  acquisition and assistance processes. The lack of experience and adequate training
                  could result in inadequate management and oversight of USAID awards.

                  During its FY 2002 Federal Managers’ Financial Integrity Act review, the Regional
                  Mission recognized the need to provide training to its CTOs. In order to train the
                  new hires as quickly and economically as possible, USAID/CAR officials took the
                  initiative to become a training hub. As a positive result, USAID/CAR has provided
                  acquisition and assistance training for the majority—86 percent—of its primary
                  CTOs and trained six potential CTOs as of June 2003. The remaining five primary
                  CTOs had received some CTO-related training but lacked some of the required
                  courses for certification. Although USAID/CAR did provide training for most of its
                  CTOs to meet the certification requirements, the audit showed that some individuals
                                                                                                       7

needed additional training.    In addition to the training, USAID/CAR provided
adequate guidance for CTOs to perform their assigned tasks. CTOs relied on
numerous sources of information to assist them in performing their job satisfactorily.
These included the CTO designation letter, direct verbal communication with the
contracting officer (CO), the USAID CTO Guidebook for Managers, the specific
contract or agreement, and co-workers.

The Office of Federal Procurement Policy (OFPP) Letter No. 97-01, dated
September 12, 1997, requires agencies to (1) identify and publish model career
paths, (2) establish education, core training, and experience requirements for their
acquisition workforce, and (3) develop a mandatory education, training and
experience requirements to ensure that individual members of the workforce possess
the core competencies required of the position. According to the OFPP, the
acquisition workforce includes contracting and purchasing officers, contracting
officer representatives (CORs), and contracting officer technical representatives
(COTRs), which are comparable to USAID’s CTO. Core competencies are
defined as those in the Federal Acquisition Institute’s COR/COTR Workbook.

ADS 202.3.4.3(c) states, "There may be situations where it is necessary to nominate
an individual to be designated as CTO who does not have the mandatory
certification required by the OFPP Policy Letter 97-1, based on the competencies
that the Agency requires. In these cases, the Operating Unit will develop a written
plan that allows the individual to receive the necessary training as quickly as
possible in order to obtain these competencies and subsequent certification.”

New hires that function as CTOs at USAID/CAR are often technical experts in
professional disciplines such as economics or health. These technical experts
perform CTO duties that require knowledge of a specific subject area. Although
USAID/CAR Regional Mission officials hired the staff based on specific subject
matter expertise, some of the CTOs indicated that additional training could help
them to better perform their responsibilities.

Since 2001 USAID/CAR increased its staffing by approximately 40 percent—from
175 positions to 243 positions—adding 68 new positions.3 Many CTOs are new to
the Agency and have little experience in USAID’s acquisition and assistance
processes. As of June 2003, the Regional Mission had provided acquisition and
assistance training for 30 out of 35—or 86 percent—of its primary designated CTOs.
While the Regional Mission had been proactive in providing the required training
that was necessary for CTO certification, some CTOs desired additional training in
specific disciplines such as financial management, leadership, and conflict
management. (See Appendix IV.)

Over half of the 32 USAID/CAR CTOs responding to an Office of Inspector
General questionnaire at the onset of this audit indicated that they needed
additional training specific to certain core competencies. (See Appendix III.) The
customer satisfaction survey conducted after the June 2003 CTO training showed
that a majority of the CTOs believe they had been adequately trained in the core
3
    The 68 new positions include 16 Centers for Disease Control positions.
                                                                                    8

competencies. However, some of them believed that additional training would be
beneficial in areas not covered or not fully covered during their CTO course
instruction. Moreover, in customer satisfaction course surveys of the CTO classes,
course participants cited financial management most frequently as additional
training desired. (See Appendix IV and V.)

In its FY 2003 training plan, USAID/CAR indicated five CTO staff members
were scheduled to receive some financial management training during the fiscal
year. However, in the latest CTO training customer service satisfaction survey,
14 CTOs indicated a desire for financial management training. While the FY
2003 training plan is a good start, the customer satisfaction survey indicates a
greater demand for this type and other related training. USAID/CAR has begun
to address the CTOs’ desire for additional training, but further evaluation is
needed to ensure that individualized training requirements are met. The lack of
training and experience could result in inadequate management and oversight of
USAID awards. Therefore, we are making the following recommendation:

       Recommendation No. 1: We recommend that USAID/Central
       Asian Republics evaluate the need for additional training based
       on the requirements identified by individual Cognizant
       Technical Officers.


USAID/CAR Should Allow Only Certified
CTOs To Serve As Alternate CTOs

USAID/CAR has not required its alternate CTOs to meet the training
requirements for certification that the Agency requires for the primary CTO. The
Regional Mission has not required the alternate CTOs to take the training because
of the limited availability and the small capacity of the classes. In most cases, the
Regional Mission has authorized the CTOs’ supervisor to serve as CTO in the
absence of the designated CTO. In many cases, these supervisors serve as
alternate to three or more CTOs, greatly increasing the likelihood that they will
need to serve in the CTOs’ absence. Unless the alternates receive appropriate
training, USAID/CAR cannot be assured they will possess the critical knowledge
to properly fulfill their CTO responsibilities when acting in lieu of the primary
designated CTO.

Although USAID/CAR does not require its alternate CTOs to be certified, alternate
CTOs have the full authority granted to the primary designated CTOs. These duties
include, among other things, the authority to approve or disapprove vouchers, certify
acceptance of goods or services, and provide written technical interpretations of
technical requirements.

The Office of Federal Procurement Policy (OFPP) Letter No. 97-01, dated
September 12, 1997, requires agencies to develop a mandatory education, training
and experience requirements to ensure that individual members of the workforce
possess the core competencies required of the position. The acquisition workforce
                                                                                   9

includes the contracting officer technical representatives (COTRs), which are
comparable to USAID’s CTOs.

Before the conclusion of our fieldwork in July 2003, one USAID/CAR official
stated that not all alternate CTOs had taken the courses to meet certification
requirements because the training classes had a limited number of openings for
participants for which all USAID CTOs had been competing. The official believed
that the limited number of classes was due to the fact that USAID/M/HR/LS hired
only one training course provider4 Moreover, one USAID/Washington/M/HR/LS
CTO Training Program official stated that, although alternate CTOs had not been
required to meet the training requirements, training the alternate CTOs would be
preferable. Furthermore, the official indicated that training for alternate CTOs may
become mandatory after all primary designated CTOs are trained.

CTOs are required to have knowledge of various disciplines to assist in the
performance of the critical duties and the oversight of millions of dollars in
USAID/CAR awards. Their appointed alternates are required to assume CTO duties
during the primary CTO’s absence. USAID staff assigned as alternate CTOs should
meet the same certification requirements as primary CTOs. Certified CTOs receive
training in the core competencies required of the position and therefore are expected
to adequately perform their job responsibilities. If alternate CTOs are not certified,
USAID/CAR cannot be assured that its CTOs understand their roles and
responsibilities to properly oversee procurement awards efficiently and effectively,
which could result in unauthorized actions. To protect USAID/CAR from this risk
we are making the following recommendation:

         Recommendation No. 2: We recommend that USAID/Central
         Asian Republics only permit certified Cognizant Technical
         Officers to serve as alternates in the absence of the primary
         Cognizant Technical Officer.


Did USAID/CAR hold its Cognizant Technical Officers accountable for
performing their responsibilities in accordance with USAID policies and
regulations?

USAID/CAR did not hold the majority of its CTOs accountable for performing
their CTO-related responsibilities. In most instances position descriptions, annual
work plans, or annual work objectives did not include an employee’s CTO duties
and responsibilities. As a result, CTOs were not always evaluated on how well
they performed their duties. In addition, supervisors responsible for assessing
USPSC performance often did not adequately document their assessment of staff
performance against work objectives. Furthermore, the Mission did not ensure
that office chiefs, or others who evaluated the performance of individual CTOs,


4
  USAID’s Office of Management/Human Resources/Learning Support (M/HR/LS) in
Washington contracted with Professional Resources Group Intl (PRGI) to provide the CTO
training.
                                                                                         10 

requested input from contract officers regarding the CTOs’ performance. The
importance of accountability in the evaluation process is discussed below.


USAID/CAR Needs to Evaluate CTO Performance

Even though CTOs play a critical role in the acquisition and assistance process,
USAID/CAR did not always include a description of CTO responsibilities in the
work objectives, position descriptions or contractual statements of work. Also,
annual U.S. Personnel Service Contract (USPSC) evaluations, which are
performed to allow for a three percent annual increase in the contract, generally
stated only that the CTO had satisfactorily performed their job. The Foreign
Affairs Handbook and USAID Acquisition Regulation Appendix D require the
evaluation of employee and personal services contractor performance. A
Regional Mission official stated that the increased staffing levels had resulted in a
backlog of subordinate staff work objectives that needed to be updated.

USAID/CAR lacked accountability in evaluating CTOs by not always including
CTO responsibilities in the position descriptions, work objectives, or contractual
statements of work for Foreign Service National (FSN) and USPSC employees.
Further, supervisors responsible for assessing USPSC performance, generally did
not adequately document their assessment of satisfactory staff performance
against work objectives.

USAID policies require the performance of employees and personal services
contractors to be evaluated.

   •	 The Foreign Affairs Handbook, 3-FAH-2 H-130, requires USAID to
      prepare position descriptions for Foreign Service National employees,
      which will serve as the basis for performance evaluations.

   •	 USAID Acquisition Regulation Appendix D – Direct USAID Contracts
      with A U.S. Citizen or U.S. Resident Alien for Personal Services Abroad,
      states that, “PSC contracts written for more than one year should provide
      for a 3% annual increase based on satisfactory performance documented in
      their annual written evaluations.”

In each case, performance elements and standards should be measurable,
understandable, verifiable, equitable, and achievable.

A USAID/CAR official stated that Mission supervisors have not been able to
update subordinate staff work objectives to keep pace with staffing increases. As
a result, many of the region’s CTOs do not have work objectives that have been
updated with their CTO responsibilities. Furthermore, USAID/CAR officials
believed that an email stating that the employee satisfactorily performed their job
met the written annual evaluation requirement in order for USPSCs to receive an
annual 3 percent salary increase.

                                                                                  11 

             Although different personnel policies regulate the performance evaluation of
             CTOs in different employment categories, there is an underlying requirement that
             all employees should be evaluated on the actual duties they are expected to
             perform. Unless USAID/CAR consistently evaluates the performance of CTOs—
             and holds them accountable for their actions—USAID/CAR increases the risk of
             poor CTO performance. This may result in grantee and contractor non-
             compliance with contract provisions and increase U.S. Government liabilities.

             Of the 19 CTO files that we reviewed, 12 of the CTOs did not have a position
             description, work objectives or contractual statement of work that mentioned their
             responsibilities as a CTO. As shown in Table 2, these 12 CTOs were responsible
             for more than 67 percent of the award dollars in our sample.

             Table 2: Sample of CTO Files Reviewed
Category         Number of    50 Percent or       Total Sample          Percent of Sample     Type of Staff
                 CTOs in      more of Time on     Dollars               Dollars               (Sample)
                 Sample       CTO Duties          Responsible           Responsible
                                                  (millions)
CTO Duties                                                                                    1 USDH5
Not described        12               9                 $ 172.9                 67.4          6 USPSC
                                                                                              5 FSN PSC
CTO Duties                                                                                    2 USDH
described             7               2                    83.8                 32.6          4 USPSC
                                                                                              1 FSN PSC
Total                19               11                 $256.7                100%                19



             USAID/CAR’s Mission Order No. 103-3 requires Country Officers to ensure that
             a staff member designated as a CTO be held accountable for the performance of
             that role and that such accountability is reflected in their work objectives and/or
             annual evaluation. However, this Mission Order does not cover the Regional
             Mission6 where 26 designated CTOs work. One Mission official stated that a
             memo that will apply to the Regional Mission is currently being drafted.

             Additionally, USAID/CAR did not ensure that individuals who prepared
             performance evaluations for CTOs solicited comments from individuals who were
             most likely to be knowledgeable about the performance of CTO tasks—staff in
             the contracting office. Supervisors were not specifically required to and rarely
             solicited comments related to the performance of CTO tasks from contracting
             office staff. Without soliciting feedback on critical CTO job requirements from
             contracting office staff who are most knowledgeable about the individual
             performance, the annual evaluation may not accurately reflect the CTO’s actual
             performance.




             5
              U.S. Direct Hire employee.

             6
              USAID/CAR country offices bound by this mission order are in Kyrgyzstan, Tajikistan, 

             Turkmenistan, and Uzbekistan. 

                                                                                                        12 

According to the Office of Personnel Management,7 performance management is
the systematic process of planning work, setting expectations, continually
monitoring performance, developing the capacity to perform, periodically rating
performance in a summary fashion, and rewarding good performance. A critical
element of this process, therefore, is the establishment of performance
expectations for critical tasks that can later be evaluated.

Presenters at a recent USAID/CAR supervisory training course for CTOs
encouraged regional managers to obtain 360-degree feedback for CTOs from the
contracting officer as well as relevant contractor or grantee representatives. In
addition, the presenters stressed that in every case, the contracting officer is an
essential 360-degree feedback source.

While the contracting staff works closely with CTOs, USAID/CAR managers
rarely solicited feedback from the contracting officer or the staff of acquisition
specialists regarding CTO performance because they were not specifically
required to do so. As a result, a specific CTO’s annual evaluation may not
accurately reflect actual job performance because some of the most
knowledgeable staff—contracting office staff—were not contacted for feedback
and comment. Because the CTOs play a significant role in the successful and
efficient implementation of the contracts and grants through which USAID
achieves its program goals, it is important that CTOs are not only aware of and
qualified to perform their CTO tasks, but also held accountable for the execution
of these tasks. As a result, we are making the following recommendations:

          Recommendation No. 3: We recommend that USAID/Central
          Asian Republics incorporate Cognizant Technical Officer duties
          and responsibilities into the position descriptions, work
          objectives, and statements of work of each individual designated
          to serve as a Cognizant Technical Officer.

          Recommendation No. 4: We recommend that USAID/Central
          Asian Republics require supervisors to evaluate Cognizant
          Technical Officer performance against work objectives or
          statements of work and solicit comments from the contracting
          office personnel and other pertinent sources, on each Cognizant
          Technical Officer’s performance, as a part of the periodic
          performance evaluation.




7
    A Handbook Measuring Employee Performance, revised January 2001.            13
(This Page Intentionally Left Blank)




                                       14 

Management       In response to our draft audit report, USAID/CAR provided written comments
Comments and     that are included in their entirety as Appendix II.
Our Evaluation
                 USAID/CAR stated that it concurred with Recommendation Nos. 1, 3, and 4. For
                 these recommendations USAID/CAR summarized planned actions to implement
                 them and provided target dates for completion. The Regional Mission proposed
                 slight changes to the wording of Recommendation Nos. 3 and 4; we evaluated the
                 suggested rewording and modified both recommendations accordingly.

                 With regard to Recommendation No. 2, the Regional Mission did not agree
                 because there no such official category of personnel as “designated alternate
                 Cognizant Technical Officers.” USAID/CAR suggested changing our
                 recommendation to “only permit certified CTOs to serve as alternate Cognizant
                 Technical Officers in the primary CTO’s absence.” We evaluated and accepted
                 USAID/CAR’s suggested revision because it should achieve the same desired
                 outcome—that of having a sufficient number of trained individuals to serve as
                 alternate CTOs. The Regional Mission also stated that it will continue its
                 aggressive CTO training program this fiscal year by once again hosting the CTO
                 series of courses.

                 Based on the USAID/CAR’s comments, we consider that a management decision
                 has been reached on Recommendation Nos. 1, 2, 3, and 4.




                                                                                             15 

(This Page Intentionally Left Blank)




                                       16 

                                                                                     Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/Budapest conducted this audit in accordance with
              generally accepted government auditing standards. This audit was designed to
              answer the following questions: (1) Did USAID/CAR provide adequate training
              and guidance to its Cognizant Technical Officers (CTOs) to help ensure that they
              were aware of and capable of performing their responsibilities? (2) Did
              USAID/CAR hold its Cognizant Technical Officers accountable for performing
              their responsibilities in accordance with USAID policies and regulations?

              In planning and performing the audit, we assessed management controls related to
              management review, proper execution of transactions and events, and review of
              performance measures and indicators. Specifically, we obtained an understanding
              and evaluated (1) the tasks to be performed by CTOs, (2) the identification of
              training needed by CTOs, (3) legal interpretations related to CTO actions, (4) the
              establishment of work objectives and performance measures for CTOs, and (5) the
              evaluation of CTO performance. We also conducted interviews with key
              USAID/CAR personnel and implementing partners. In addition, we reviewed
              pertinent employee-related documentation such as individual training plans
              covering fiscal year 2003 and selected employee evaluations for their most recent
              rating period.

              We conducted the audit at USAID/CAR located in Almaty, Kazakhstan. The
              audit fieldwork was conducted from May 27 through July 18, 2003.

              Methodology

              To answer both audit objectives we reviewed applicable laws and regulations as
              well as USAID policy and procedures. In addition, we administered a
              questionnaire to gather information from the CTOs in USAID/CAR. Through the
              questionnaire, we obtained information on the CTOs’ background, training, and
              experience performing CTO tasks. As of May 2003, USAID/CAR had 35
              individuals designated as CTOs. The questionnaire was distributed to all 35
              CTOs and 32 responded. We did not develop materiality thresholds for the audit
              objectives.

              In addition to distributing the questionnaire and analyzing the resulting responses,
              we interviewed CTOs, CTO supervisors, implementing partners, and personnel
              from the contracting office. We judgmentally selected 19 CTOs and four
              implementing partners to interview. The interviews provided us with an
              understanding of how CTOs performed their tasks and their level of
              understanding of what was expected of them.

              To answer the second objective, we reviewed pertinent employee evaluation
              documents. We reviewed position descriptions, work objectives, and statements
                                                                                               17 

of work for the 19 CTOs interviewed. We analyzed these documents to determine
if work plans, statements of work, or work objectives adequately delineated the
scope and expected standards for performance of their CTO duties.




                                                                            18 

                                                                                                              Appendix II



Management
Comments

UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT
                              REGIONAL MISSION FOR CENTRAL ASIA

                                              Office of the Director




November 4, 2003

MEMORANDUM
TO:               Regional Inspector General/Budapest, Nancy J. Lawton

FROM:             USAID/Central Asia Republics, Acting Regional Director, Michael Fritz /s/

SUBJECT: 	        Draft Report on Audit of USAID/CAR Training, Use, and Accountability of Cognizant Technical Officers
                  (Report No. B-176-03-XXX-P)


The USAID/CAR Mission appreciates the opportunity to share its comments on the subject draft audit report and, as
requested, we have outlined our position with regard to each of the recommendations in the discussion below.

First of all, however, I would like to thank the auditors for recognizing that this Mission has been extremely proactive in
getting its designated Cognizant Technical Officers (CTOs) the training they need to effectively carry out their duties. Even
though we have not yet reached the stage where every CTO is certified, as the auditors note, 86 percent of our CTOs have
completed the Agency’s mandatory training program. This is a tremendous percentage given our isolated location and our
success is due to the efforts of many to make the USAID/CAR Mission a regional training hub.

During this current fiscal year, we plan to once again host the CTO training series, as well as host courses in Financial
Management, Project Management, and the Planning, Achieving, and Learning Course. During October, we also conducted
a one-day CTO/Activity Management “Stop-Gap” training workshop that brought together all of our CTOs and Activity
Managers within the region to strengthen their knowledge base and results orientation.

While the General Accounting Office's recent report on USAID workforce planning stated, "With fewer and less experienced
staff managing more programs in more countries, USAID’s ability to oversee the delivery of foreign assistance is becoming
increasingly difficult,” this Mission remains committed to ensuring that this will not be the case in Central Asia. We will
continue to proactively address our training needs and take whatever steps are needed to ensure we can effectively manage
our programs throughout Central Asia.




                                                                                                                            19 

Recommendation No. 1: We recommend that USAID/Central Asian Republics evaluate the need for additional CTO
training based on the requirements identified by individual CTOs.

The Mission concurs with this recommendation and, in addition to taking steps to further evaluate the need for training, has
already addressed some of the competencies identified by CTOs in our “Stop-Gap” CTO/Activity Management training
workshop. The Mission also plans to re-survey its CTOs in order to rank-order the competencies described in your Table 1.
This will permit the Mission to focus development of additional training on the most critical areas. The planned target date
for completion of the survey is December 31, 2003.

Recommendation No. 2: We recommend that USAID/Central Asian Republics provide training to meet certification
requirements for designated alternate Cognizant Technical Officers.

The Mission does not agree with this recommendation because there is no such official category of personnel as “designated
alternate Cognizant Technical Officers.” For example, the CTO designation letter simply states that in the CTO’s absence,
the CTO may “designate someone to serve as CTO in your place. However, such action to direct an individual to act in your
stead shall immediately be communicated to the Contractor and the Contracting Officer.” The word “someone” in this
statement means that the designation is “ad-hoc” in nature and just about anyone in the Mission can be asked to serve as an
alternate CTO.

Therefore, a better recommendation and one easier for the Mission to correct would be to say, “We recommend that
USAID/Central Asian Republics only permit certified CTOs to serve as alternate Cognizant Technical Officers in the
primary CTO’s absence.” With the current recommendation, the Mission cannot completely ensure that every possible
person who might be designated an alternate CTO can be trained prior to being designated; however, with the revised
recommendation, the Mission can ensure that only qualified personnel will be designated an alternate CTO immediately. If
the change in recommendation is acceptable, the Mission will close this recommendation by issuing a Mission Notice to all
CTOs to follow this requirement and, to further control the requirement, the Contracting Office can deny the CTO’s request
to designate another person to act in his/her stead if that person is not certified. The planned target date for closing the
revised recommendation is November 30, 2003.

The change in recommendation would require this section of the report to be modified considerably and the emphasis placed
on the need to ensure the use of certified CTOs as alternates when necessary. However, because our goal is to ensure that a
sufficient number of trained individuals can serve as alternates, we will continue our aggressive CTO training program this
fiscal year by once again hosting the CTO series of courses. Apart from the recommendation, the Mission believes that the
third paragraph on page 7 (beginning with the words “ADS 202.3.4.3”) would fit better if placed as the second paragraph on
page 6.

Recommendation No. 3: We recommend that USAID/Central Asian Republics incorporate Cognizant Technical Officer
duties and responsibilities into the position descriptions, work objectives and statements of work of each individual
designated to serve as a Cognizant Technical Officer [and evaluate the performance against those work objectives or
statements of work]. (Brackets added by the Mission)

The Mission concurs with this recommendation but feels that the last section (enclosed in brackets) would better fit under
recommendation no. 4. As well, we would like to see this, and the following recommendation, raised at the Agency level for
implementation. At our level, however, if the above mentioned revision is acceptable, USAID/CAR has already begun
closing this recommendation. As the EXO commented, “As a direct result of the CTO training conducted, offices and
MS/PER immediately began incorporating CTO duties and responsibilities into PDs (position descriptions). This is routine
for every PD involving CTO duties; about 10 have been done to date.” The Mission proposes to close this recommendation
by adding the appropriate language to all contracts and having the EXO and Contracting Officer attest to this fact. The
planned target date for closing the truncated recommendation is March 31, 2004.

Recommendation No. 4: We recommend that USAID/Central Asian Republics require supervisors to [evaluate CTO
performance against work objectives or statements of work and] solicit comments from the contracting office personnel and
other pertinent sources, on each Cognizant Technical Officer’s performance, as part of the periodic performance evaluation.
(Brackets added by the Mission)

The Mission concurs with this recommendation as further described above under recommendation no. 3. We agree with the
IG that USAID’s guidance on performance evaluations under different employment categories varies considerably and that,
currently, there is no standard, Agency-wide format for USPSC evaluations. That said, USAID/CAR proposes to close this
                                                                                                                           20 

recommendation through the issuance of definitive guidance that will spell out what exactly will be required in CTO
performance evaluations. For example, the guidance would state what is specifically required in an evaluation and the
consequences for not including this information; a proposed standard evaluation report format for USPSCs (all other
categories already have an established format); and any other useful information that may result from collaboration with
M/OP on the guidance. The planned target date for closing this “expanded” recommendation is March 31, 2004.

If you have any questions about these comments and/or our proposed changes, please do not hesitate to get in touch with Mr.
Richard Lawrence, the USAID/CAR Mission Audit Management Officer.




                                                                                                                           21 

(This Page Intentionally Left Blank)




                                       22 

                                                                                 Appendix III


Table 1: List Showing Results of Respondents to an OIG Questionnaire
Regarding CTO Training8 Needs. (Prior to the June 2003 Training Courses)



                                                                                CTOs Who Said
                                                                                 They Needed
                                                                                More Training
                                                                  No. of CTOs
                                                                  Responding     No.       %
            Required Competencies for Contracts
Knowledge of contracting law and regulations                          28         21        75
Knowledge of contracting ethics including conflicts of interest
and security of information                                           27         21        78
Ability to develop contract requirements, conduct market
research, and prepare requirements documents and statements
of work                                                               28         24        86
Ability to request/assess bid and proposals                           28         24        86
Ability to conduct price and cost determinations                      28         25        89
Ability to monitor contractor performance                             28         22        79
Ability to process contracting actions                                28         23        82
Knowledge of documentation requirements including tracking
orders, deliverables, timesheets, and other record keeping            27         22        81
Ability to close-out, terminate contract appeals and protests         27         22        81
Ability to administratively approve vouchers for payment              27         21        78
              Required Competencies for Grants
                 and Cooperative Agreements
Knowledge of elements of an award                                     31         24        77
Knowledge of USAID's policy on competition                            31         29        94
Knowledge of types of assistance instruments                          31         19        61
Knowledge of USAID Source Origin/Nationality
Requirements                                                          31         21        68
Ability to process closeout procedures                                31         26        84
Ability to monitor and evaluate recipients' performance               32         24        75
Ability to review and analyze performance and financial
reports and verify timely delivery                                    32         24        75




8
  Choices of additional training in the survey included a small amount, moderate amount,
 or a lot of training.                                                                          23
(This Page Intentionally Left Blank)




                                       24 

                                                                                                       Appendix IV


Table 2: Customer Satisfaction Survey9 A&A 103 Assistance Management
USAID/CAR Almaty, June 16-20, 2003
                                                              Yes   No    Comments
I understand the required elements of an award to fulfill     27    0     • Please add a Financial Management
my CTO duties                                                                Component.
                                                                          • I don’t understand all of them and
                                                                             need practice.
I understand the laws and regulations applicable to grants    27    0     • I need practice.
and cooperative agreements (such as rules of competition,                 • We manage for results not rules.
the types of contracts and when it should be used)                        • I still need a Contracting Officer to
                                                                             assist and advise on laws and
                                                                             regulations.
I understand the types of assistance instruments and when     26    0     • I need practice
each should be used

I understand the USAID Source Origin/ Nationality             25    1     •    I need practice it’s still a bit confusing.
requirements to fulfill my CTO duties

I have the ability to process closeout procedures             24    2     •    I need practice and more explanation.

I have the ability to monitor and evaluate recipients’        26    0     •    I need practice.
performance to facilitate the attainment of program                       •    It would be useful if USAID had a
objectives                                                                     specific course on monitoring.

I have the ability to review and analyze performance and      24    2     •    I need practice and advice.
financial reports and verify timely delivery                              •    I need more training;
                                                                          •    I need additional training;
                                                                          •    It would be beneficial to review an
                                                                               actual financial report.
Would you like the coursework to cover any additional         22    5     •    Financial Management(14)
CTO related duties (i.e., Financial Management, etc)                      •    Leadership training
                                                                          •    Legal
                                                                          •    Conflict Management
                                                                          •    Communications
                                                                          •    It should cover issues as needed by the
                                                                               group
                                                                          •    Please go back to old project Imp.
                                                                               Course. Much more straight forward
                                                                               & would include Finance.




                    9
                        The survey was administered by the Regional Mission.                                           25 

(This Page Intentionally Left Blank)




                                       26 

                                                                                                           Appendix V

Table 3: Customer Satisfaction Survey10 A&A 102 Acquisition Management USAID/CAR
Almaty, June 9-13, 2003
                                                  Yes   No    Comments
I have received sufficient training on            19    1     • Some details are still not clear.
contracting law and regulations to fulfill my
CTO duties

I have received adequate knowledge of             20    1     •   The course did not cover security of information.
contracting ethics including conflicts of
interest and security of information to fulfill
my CTO duties.

I have the ability to develop contract            12    6     •   I need training on SOW writing.
requirements, conduct market research, and                    •   I need some experience.
prepare requirement documents and                             •   I need practice but in theory believe I can do it.
statements of work to fulfill my CTO duties                   •   I could use more training on SOW.

I have the ability to request/assess bid and      16    4     •   I need some experience.
proposals                                                     •   I didn’t have enough time to do it.
                                                              •   Technical areas of process not covered in course.
I am able to conduct price and cost analysis      14    5     •   This area not included in Course
to fulfill my CTO duties                                      •   I believe that I can adequately conduct the analysis.
                                                              •   I need more instruction on how to conduct the
                                                                  analysis.
                                                              •   I need some more training on how to conduct the
                                                                  analysis.
I am able to monitor contractor performance       20    1     •   This area was not included in course.
in line with CTO regulation

I am able to process contracting actions (task    16    3     •   This area not included in course.
orders, invoices, change actions,                             •   Yes, for invoices.
modifications)                                                •   CO should do these actions.
                                                              •   I can do it with the support of more experienced
                                                                  colleagues.
                                                              •   I need more practical exercises
I have received sufficient training on            12    8     •   This area was not included in course.
documentation requirements including                          •   I need additional training.
tracking orders, deliverables, timesheets to                  •   Course didn’t discuss timesheets and tracking orders.
fulfill my CTO duties                                         •   I obtain assistance from my supervisor or CO.

I am able to close-out, terminate contract        15    6     •   This area was not included in the course.
appeals and protests                                          •   I don’t believe CTO terminates or works with
                                                                  protests.
                                                              •   I can do it with assistance of experienced colleague.
                                                              •   I can do it in theory.
                                                              •   I need more instruction.
                                                              •   I can do it with some assistance from the regional
                                                                  office.
                                                              •   I have never done it before but I can perform the
                                                                  duties.


                     10
                          The survey was administered by the Regional Mission. 

                                                                                                                          27 

                                                 Yes   No   Comments
I understand how to administratively             20    1    • This area was not included in course.
approve vouchers for payment to fulfill my
CTO duties

Would you like the coursework to cover any       14    4    •   There could be a series of such trainings, as modules
additional CTO related duties (i.e., Financial                  under umbrella of CTO training.
Management, etc)                                            •    Financial Management (6)
                                                            •   SOW (2)
                                                            •   Procurement Code and Regulations
                                                            •   It would be good to have separate training. Separate
                                                                modules for detail work (vouchers, finance) not
                                                                combined but separate perhaps reference manuals as
                                                                examples.




                                                                                                                    28 

